HHS/OIG, Audit - "Medicaid Payments for Skilled Professional Medical
Personnel to Missouri School Districts," (A-07-06-03075)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Skilled
Professional Medical Personnel to Missouri School Districts," (A-07-06-03075)
October 20, 2006
Complete Text of Report is available in PDF format (740 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if the State agency properly claimed payments for skilled professional medical personnel at the enhanced Federal funding rate for FY 2003 at the school district level. We found that the State agency did not properly claim payments of $1.1 million (Federal share) for skilled professional medical personnel at the enhanced Federal funding rate for FY 2003 at the school district level. Specifically, the payments were for (1) unallowable activities included by the school districts, (2) inaccurate administrative claiming invoices included by School District A, and (3) inaccurate personnel rosters included by School District A.
We recommended the State agency refund $1,065,655 to the Federal Government and strengthen policies and procedures to more closely monitor the School District Administration Claiming (SDAC) program and payments, including in depth reviews at the school district level. We also recommended that the State agency review all the school districts FY 2003 SDAC cost pools and invoices to ensure accuracy and remit any overpayments to the Federal Government. In its written response to our draft report, the State agency disagreed with the majority of the recommendations.